Washington, D.C. 20530

February 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Noel Jones v. United States of America,
S.Ct. No. 20-6802
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on January 4, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on February 25, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6802
JONES, NOEL
USA

SAMANTHA JEAN KUHN
OFFICE OF THE FEDERAL PUBLIC DEFENDER
FOR THE EAST
500 POYDRAS STREET
STE. 318
HALE BOGGS FEDERAL BUILDING
NEW ORLEANS, LA 70130
504-589-7942
SAMANTHA_KUHN@FD.ORG

